           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     ADJUSTMENT OF DISABLED
     WAGE EARNERS’ BENEFITS
     AT FULL RETIREMENT AGE

    March 2008    A-09-07-17134




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      March 14, 2008                                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age
           (A-09-07-17134)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration (SSA)
           accurately adjusted benefits of disabled wage earners when they reached full
           retirement age (FRA).

           BACKGROUND

           SSA administers the Old-Age, Survivors and Disability Insurance programs under
                                                     1
           Title II of the Social Security Act (Act). These programs provide monthly benefits to
           retired and/or disabled workers and their families and to survivors of deceased workers.
           Retired workers are eligible to receive reduced retirement benefits before FRA. To
           calculate the monthly benefit amount, SSA applies a reduction factor based on the
           number of months before FRA for which reduced retirement benefits were received. 2 In
           addition, the Act contains two provisions that affect the calculation of monthly benefits
           for individuals who are entitled to both retirement and disability benefits before FRA. 3

           The first provision eliminates the reduction of retirement benefits for aged beneficiaries
           when they attain age 65 or FRA. 4 This usually occurs because the aged beneficiary
           was simultaneously entitled to disability benefits before FRA but elected a reduced

           1
               The Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           2
             The Social Security Act § 202 (q), 42 U.S.C. § 402 (q). See also SSA, Program Operations Manual
           System (POMS) RS 00615.004. FRA occurs at age 65 for those born before January 2, 1938.
           FRA increases incrementally from age 65 to age 67 for those born from January 2, 1938 through
           January 1, 1962. FRA occurs at age 67 for those born after January 1, 1962.
           3
               The Social Security Act § 202 (q) (2) and (q) (7) (F), 42 U.S.C. § 402 (q) (2) and (q) (7) (F).
           4
             The Social Security Act § 202 (q) (7) (F), 42 U.S.C. § 402 (q) (7) (F) and SSA, POMS
           DI 52001.001.E.1.c.
Page 2 - The Commissioner

retirement benefit to avoid workers’ compensation or public disability benefits offset. 5
When a beneficiary makes this election, SSA employees must prepare a manual diary
to increase the monthly benefit amount at FRA. 6 SSA's automated system may also
generate an alert to increase the monthly benefit amount when a disabled beneficiary
               7
attains age 65. There were approximately 26,600 beneficiaries in current pay status
who were simultaneously entitled to retirement and disability benefits that elected
reduced retirement benefits to avoid workers’ compensation or public disability benefits
offset. Of these, we identified 3,235 beneficiaries whose monthly benefit amount was
not increased at FRA.

The second provision concerns beneficiaries who elect reduced retirement benefits and
subsequently become entitled to disability benefits. These individuals may continue to
receive reduced retirement benefits or elect to receive disability benefits. SSA reduces
the disability benefit for each month the individual was entitled to reduced retirement
benefits. 8 When the beneficiary attains FRA, the disability benefits are converted to
retirement benefits, and the monthly benefit amount must be reduced for the months
of prior entitlement to reduced retirement benefits. 9 There were approximately
270,000 beneficiaries in current pay status who were entitled to reduced retirement
benefits that subsequently were entitled to disability benefits. Of these, we estimate
there were about 23,040 disabled beneficiaries whose benefits may not have been
properly reduced for the months of prior entitlement to retirement benefits. 10

RESULTS OF REVIEW

Our review disclosed that SSA did not properly adjust the benefits of disabled wage
earners at FRA. This occurred because SSA did not (1) establish manual diaries to
ensure it increased monthly benefit amounts at FRA, (2) take appropriate action on the
diaries when they matured, or (3) account for prior entitlement to reduced retirement
benefits. Specifically, for disabled beneficiaries who previously elected reduced
retirement benefits to avoid workers’ compensation or public disability benefits offset,
we estimate that



5
     SSA, POMS RS 00615.110.B.2.
6
     SSA, POMS RS 00615.482.C.
7
     SSA, POMS SM 00619.096.
8
     The Social Security Act § 202 (q) (2), 42 U.S.C. § 402 (q) (2) and SSA, POMS RS 00615.410.
9
     SSA, POMS RS 00615.110 and RS 00615.010.
10
    The Master Beneficiary Record (MBR) is divided into 20 segments, with each segment representing
5 percent of all records. We identified a population of 1,152 records from Segment 10 of the MBR. As
a result, we estimate that 23,040 beneficiaries (1,152 x 20) had attained FRA and received reduced
retirement benefits before entitlement to disability benefits.
Page 3 - The Commissioner

•     SSA underpaid about $39.9 million to 2,782 beneficiaries from June 1990 to
      May 2007 and

•     2,685 beneficiaries may be underpaid about $68.1 million over their remaining life
      expectancies. 11

We also estimate that SSA improperly paid about $3.2 million to 3,220 beneficiaries
from December 2003 to May 2007 because it did not apply the correct reduction factor
for the months of entitlement to retirement benefits before FRA (see Appendix C).

Retirement Benefits Were Not Increased at FRA

The Act requires that retirement benefits be reduced when a beneficiary elects to
                                                12
be paid 1 or more months before attaining FRA. SSA policy states that, when an
automatic adjustment of the reduction factor has not been recorded, a manual diary
must be prepared to alert SSA that it should adjust the reduction factor at FRA to
eliminate any months of simultaneous entitlement to disability benefits. 13

We identified 3,235 disabled beneficiaries who had elected reduced retirement benefits
to avoid workers’ compensation or public disability benefits offset whose monthly
benefit amount was not increased at FRA. Of the 100 beneficiaries in our sample, SSA
did not always increase benefits to reflect their simultaneous entitlement to disability
benefits. This occurred because SSA did not prepare manual diaries for these cases
or take action on the manual diaries when they matured. As a result, SSA underpaid
about $1.2 million to 86 beneficiaries.

Projecting our sample results to the population of 3,235 beneficiaries, we estimate that
SSA underpaid about $39.9 million to 2,782 beneficiaries from June 1990 to May 2007.
To estimate the amount of additional benefits that may be owed to these beneficiaries
in the future, we multiplied the last monthly underpayment amount by the number of
months the beneficiaries were expected to live beyond May 2007. As a result, we
estimate that 2,685 beneficiaries will be underpaid about $68.1 million over their
remaining life expectancies (see Appendix C).

For example, one disabled beneficiary in our sample elected reduced retirement
benefits at age 62 to avoid workers’ compensation offset. When the beneficiary made
this election, SSA correctly applied a retirement reduction factor of 35 months to reduce
the monthly benefit. However, when the beneficiary attained FRA in October 1990,


11
  We used the life expectancy rates published by the Department of Health and Human Services,
Centers for Disease Control and Prevention (National Vital Statistics Report, Vol. 54, No. 14, Table A,
(April 19, 2006).
12
     The Act § 202 (q), 42 U.S.C. § 402 (q).
13
     SSA, POMS RS 00615.482.C.
Page 4 - The Commissioner

SSA did not eliminate the retirement reduction factor, as required, to reflect the
simultaneous entitlement to disability benefits. As a result, SSA underpaid the
beneficiary by $43,794 from October 1990 to May 2007.

The following chart illustrates how long the beneficiaries in our population were
underpaid. For the 2,782 beneficiaries with underpayments, the average length of the
underpayments was 7.4 years.

       Length of Time                   Number of Beneficiaries   Percent of Population
 Under 1 Year                                     195                        7
 1 to 2 Years                                     501                       18
 3 to 6 Years                                     806                       29
 7 to 10 Years                                    501                       18
 11 to 14 Years                                   445                       16
 Over 14 Years                                    334                       12
 Total                                          2,782                      100

Improper Payments for Beneficiaries Receiving Retirement Benefits Before FRA

The Act states that, when a beneficiary is entitled to disability benefits after receiving
reduced retirement benefits, the disability benefits are reduced by the amount the
retirement benefits would have been reduced had the beneficiary attained FRA in the
                                                  14
first month of entitlement to disability benefits. SSA policy states the reduction factor
shall be the number of months from the month of entitlement to retirement benefits to
                                                 15
the month of entitlement to disability benefits.

We estimate there were about 23,040 disabled beneficiaries who were previously
entitled to retirement benefits before FRA whose benefits may not have been properly
reduced for the months of prior retirement. 16 However, SSA did not always adjust the
retirement benefits of the 100 beneficiaries in our sample when they became entitled to
disability benefits.

This occurred because SSA did not apply the proper reduction factors when the
beneficiaries became entitled to disability benefits. In addition, SSA did not always
apply the correct reduction factors at FRA. As a result, SSA improperly paid $13,732 to
14 beneficiaries, including 9 overpayments totaling $10,855 and 5 underpayments
totaling $2,877. Based on our sample results, we estimate that SSA improperly paid
about $3.2 million to 3,220 beneficiaries from December 2003 to May 2007 (see
Appendix C).


14
     The Act § 202 (q) (2), 42 U.S.C. § 402 (q) (2).
15
     SSA, POMS RS 00615.410.B.2.a.
16
     See footnote 10.
Page 5 - The Commissioner

For example, one beneficiary in our sample was entitled to reduced retirement benefits
at age 62. At the time, SSA correctly applied a retirement reduction factor of 43 months
to reduce the monthly benefit. When the beneficiary became eligible for disability in
November 2004, SSA should have reduced the disability benefits to account for the
21 months of prior retirement benefits received. Instead, SSA incorrectly eliminated the
reduction factors altogether. As a result, SSA overpaid the beneficiary by $3,227 from
November 2004 to May 2007.

CONCLUSION AND RECOMMENDATIONS
Our review disclosed that SSA did not properly adjust the benefits of disabled
wage earners at FRA. We estimate that SSA underpaid about $39.9 million to
2,782 beneficiaries who previously elected reduced retirement benefits to avoid
workers’ compensation or public disability benefits offset. Unless SSA takes prompt
corrective action, we estimate that 2,685 beneficiaries will be underpaid about
$68.1 million over their remaining life expectancies. We also estimate that SSA
improperly paid about $3.2 million to 3,220 beneficiaries because it did not apply the
correct reduction factor for the months of entitlement to retirement benefits before FRA.
These payment errors occurred because SSA did not (1) establish manual diaries to
ensure it increased monthly benefit amounts at FRA, (2) take appropriate action on the
diaries when they matured, or (3) account for prior entitlement to reduced retirement
benefits. Therefore, we recommend that SSA:

1. Take corrective action to pay underpayments and establish overpayments for the
   100 beneficiaries identified by our audit.

2. Identify and take corrective action on the population of beneficiaries who are

      underpaid because their benefits were not increased at FRA to eliminate the
       benefit reduction for any months of entitlement to disability or

      improperly paid because they received reduced retirement benefits before
       entitlement to disability benefits.

3. Remind employees to prepare manual diaries when processing claims for
   simultaneous entitlement to retirement and disability benefits and take appropriate
   action on the diaries when they mature.

4. Establish appropriate controls to ensure that reduction factors are properly adjusted
   at FRA.
Page 6 - The Commissioner

AGENCY COMMENTS
SSA agreed with all of our recommendations. See Appendix D for the text of SSA’s
comments.




                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments




                                     C-1
                                            Appendix A

Acronyms
Act      Social Security Act
FRA      Full Retirement Age
MBR      Master Beneficiary Record
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
SSN      Social Security Number
U.S.C.   United States Code
                                                                                         Appendix B

Scope and Methodology
We reviewed two provisions of the Social Security Act that affect the monthly benefit
amount of individuals who were entitled to disability benefits and subsequently
                                    1
attained full retirement age (FRA). In May 2007, we obtained from the Social
Security Administration’s (SSA) Master Beneficiary Record (MBR) a data extract of
3,235 disabled beneficiaries in current pay status who had elected reduced retirement
benefits to avoid workers’ compensation or public disability benefits offset whose
monthly benefit amount was not increased at FRA. In December 2006, we also
obtained a data extract of 1,152 disabled beneficiaries in current pay status who were
previously entitled to only retirement benefits before FRA whose benefits may not
have been properly reduced for the months of prior entitlement to retirement.

To accomplish our objective, we

•     reviewed the applicable sections of the Social Security Act and SSA's Program
      Operations Manual System;

•     interviewed SSA employees from the Offices of Quality Performance, Public
      Services and Operations Support, and Retirement and Survivors Insurance
      Systems;

•     selected 2 random samples of (1) 100 beneficiaries who were simultaneously
      entitled to retirement and disability benefits while eligible for workers’ compensation
      or public disability benefits and (2) 100 beneficiaries who had received reduced
      retirement benefits before entitlement to disability benefits; and

•     reviewed queries from SSA’s MBR and Payment History Update System.

We determined whether the computer-processed data from the MBR were sufficiently
reliable for our intended use. We conducted tests to determine the completeness and
accuracy of the data. These tests allowed us to assess the reliability of the data and
achieve our audit objectives.

We evaluated SSA’s controls and procedures for calculating the reduction factors
of wage earners upon entitlement to retirement and disability benefits and at
FRA. Specifically, we determined whether SSA accurately paid the beneficiaries
after adjusting the reduction factors. The amounts reported represent the total
underpayments and/or overpayments from initial entitlement to retirement or
disability benefits to May 2007 or from FRA to May 2007.


1
    The Social Security Act § 202 (q) (2) and (q) (7) (F), 42 U.S.C. § 402 (q) (2) and (q) (7) (F).


                                                       B-1
We performed audit work in Richmond, California, between July and October 2007.
The entities audited were SSA’s Office of Operations and Office of Systems. We
conducted our audit in accordance with generally accepted government auditing
standards.




                                        B-2
                                                                                    Appendix C

Sampling Methodology and Results
We obtained two data extracts from the Social Security Administration’s (SSA) Master
Beneficiary Record (MBR) of beneficiaries who were in current pay status and received
reduced retirement benefits. The first extract consisted of wage earners who were
simultaneously entitled to retirement and disability benefits while eligible for workers’
compensation or public disability benefits and attained full retirement age (FRA) before
March 2007. The second extract consisted of wage earners who received reduced
retirement benefits before entitlement to disability benefits before December 2006.

Wage Earners Simultaneously Entitled to Retirement and Disability Benefits and
Workers’ Compensation or Public Disability Benefits

Our first extract consisted of 3,235 records. We randomly selected 100 records and
calculated the monthly benefit amounts and underpayments for each beneficiary.
Specifically, we calculated the reduction factor and determined whether it had been
properly adjusted at FRA. We found that SSA did not adjust the reduction factors for
86 beneficiaries, resulting in about $1.2 million in underpayments. Projecting our
sample results to the population of 3,235 beneficiaries, we estimate that SSA underpaid
about $39.9 million to 2,782 beneficiaries from June 1990 to May 2007.

To estimate the amount of additional benefits that may be owed to these beneficiaries
in the future, we multiplied the last monthly underpayment amount by the number of
months the beneficiaries were expected to live beyond May 2007. As a result, we
estimate that 2,685 beneficiaries will be underpaid about $68.1 million over their
remaining life expectancies. 1 The following tables provide the details of our sample
results, statistical projections, and estimates.

Table 1 – Population and Sample Size

                            Description                                   Number of Beneficiaries
    Population Size                                                               3,235
    Sample Size                                                                     100




1
  We used the life expectancy rates published by the Department of Health and Human Services,
Centers for Disease Control and Prevention (National Vital Statistics Report, Vol. 54, No. 14, Table A,
(April 19, 2006).


                                                    C-1
Table 2 – Unadjusted Reduction Factors at FRA

            Description                Number of Beneficiaries                 Underpayments
    Sample Results                                86                              $1,233,728
    Point Estimate                             2,782                             $39,911,101
    Projection - Lower Limit                   2,558                            $33, 947,164
    Projection - Upper Limit                   2,953                            $45, 875,038
Note: All statistical projections are at the 90-percent confidence level.

Table 3 – Estimated Underpayments Over Life Expectancy

            Description                Number of Beneficiaries                 Underpayments
    Sample Results                                83                              $2,104,759
    Point Estimate                             2,685                             $68,088,960
    Projection - Lower Limit                   2,450                             $59,186,465
    Projection - Upper Limit                   2,872                             $76,991,456
Note: All statistical projections are at the 90-percent confidence level.

Wage Earners Receiving Reduced Retirement Benefits Before Entitlement to
Disability Benefits

Our second extract consisted of 1,152 records that were selected from 1 of
20 segments of SSA’s MBR. 2 We randomly selected 100 records and calculated
the reduction factors for each beneficiary. Specifically, we calculated the reduction
factors upon entitlement to retirement or disability benefits and at FRA. We also
calculated the total improper payments for each beneficiary.

We found that SSA did not properly adjust the reduction factors of 14 of the
100 beneficiaries in our sample, resulting in $13,732 in improper payments.
Projecting these results to all 20 segments, we estimate that SSA improperly paid
about $3.2 million to 3,220 beneficiaries from December 2003 to May 2007. The
following tables provide the details of our sample results, statistical projections,
and estimates.

Table 4 – Population and Sample Size

                         Description                                        Number of Beneficiaries
    Population Size (Data extract from 1 segment)                                   1,152
    Sample Size                                                                       100




2
  The MBR is divided into 20 segments for processing and updating. The segments are determined by
the last two digits of the Social Security number. Each segment represents 5 percent of all records. We
randomly selected a sample of 100 records from our population of 1,152 records that we extracted from
Segment 10 of the MBR.


                                                     C-2
Table 5 – Improperly Adjusted Reduction Factors Before FRA

            Description                Number of Beneficiaries              Improper Payments
    Sample Results                                14                                $13,732
    Point Estimate                               161                              $158,193
    Projection - Lower Limit                     102                                $55,156
    Projection - Upper Limit                     239                              $261,229
    Estimate for Entire MBR 3                  3,220                             $3,163,860
Note: All statistical projections are at the 90-percent confidence level.




3
    Represents the point estimate multiplied by 20 segments.


                                                     C-3
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM

Date:      February 21, 2008                                                     Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Adjustment of Disabled Wage Earners
           Benefits at Full Retirement Age” (A-09-07-17134)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "ADJUSTMENT OF DISABLED WAGE EARNERS BENEFITS AT FULL
RETIREMENT AGE” (A-09-07-17134)


Thank you for the opportunity to review and provide comments on this draft report.

The audit identified 3,235 disabled beneficiaries in current pay who elected reduced retirement
benefits to avoid worker's compensation (WC) or public disability benefit offset whose monthly
benefit amount was not increased at full retirement age (FRA). It also found about 23,040 disabled
beneficiaries in current pay who were previously entitled to only retirement benefits before FRA
whose benefits may not have been properly reduced for the months of prior entitlement to
retirement benefits. Based on these findings, recommendations were made to ensure that the Social
Security Administration (SSA) accurately adjusts benefits of disabled wage earners when they
attain FRA. While we agree with the recommendations, we feel that the report should explicitly
state that the problem cases represent a small portion of the larger universe of cases.

We also suggest that the audit acknowledge the age at which WC offset ends, at age 65, precedes
the now-current FRA. Thus, a person concurrently entitled to retirement insurance benefits (RIB)
and disability insurance benefits (DIB) who elects RIB to avoid the offset, should have his or her
benefit switched to DIB at age 65—prior to FRA. We feel that it is necessary for the report to
mention this adjustment.

Our responses to the specific recommendations are provided below:

Recommendation 1

Take corrective action to pay underpayments and establish overpayments for the 100 beneficiaries
identified by our audit.

Comment

We agree that since the report identified beneficiaries who are underpaid or overpaid, that we
should take corrective action to pay the underpayments due and establish overpayments for the
respective beneficiaries. Once these cases are completely identified, we will take the proper
corrective actions.

Recommendation 2

Identify and take corrective action on the population of beneficiaries who are either: 1) underpaid
because their benefits were not increased at FRA to eliminate the benefit reduction for any months
of entitlement to disability; or 2) improperly paid because they received reduced retirement benefits
before entitlement to disability benefits.




                                                D-2
Comment

We agree. We have an obligation to make correct payments to beneficiaries, and identified errors
should be promptly corrected.

In May 2007, SSA created the Regular Transcript Attainment and Selection Pass (RETAP) alerts
for those disabled workers receiving reduced retirement benefits at age 65. These alerts are known
as RETAP RT45 alerts (NH Age 65—Dev DIB Election). The alert requires review of the benefits
and contact with the disabled worker to obtain a possible election to receive DIB benefits at age 65.

We also identified about 7,700 disabled workers who attained age 65 between January 2003 and
July 2007 and continued to receive reduced retirement benefits from age 65 to FRA. These disabled
workers are being mailed letters explaining that additional benefits may be due if the worker elects
to again receive DIB at age 65. Electing DIB at age 65 gives the disabled worker the adjusted
reduction factor at age 65 and those benefits are converted to RIB at FRA. The first two mailings
were done in November 2007 and in January 2008, with subsequent mailings scheduled for March
and May 2008. We plan to complete processing of this workload during fiscal year 2008. This
clean up operation will pay the underpayments identified in this audit.

The overpayments found in the audit are the result of the incorrect payment of full DIB benefits
after prior RIB entitlement. DIB should be reduced by the number of months of RIB entitlement
prior to DIB entitlement. We will explore ways to handle these cases similar to the RT45 alerts
mentioned above.

Recommendation 3

Remind employees to prepare manual diaries when processing claims for simultaneous entitlement
to retirement and disability benefits and take appropriate action on the diaries when they mature.

Comment

We agree. We will issue a reminder through an Administrative Message by March 2008.

Recommendation 4

Establish appropriate controls to ensure that reduction factors are properly adjusted at FRA.

Comment

We agree. Alerts should be automatically generated prior to the DIB FRA for all benefit records
with simultaneous RIB/DIB entitlement. We will explore ways to address this issue.




                                                D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments

In addition to those named above:

   Daniel Hoy, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-07-17134.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
